Report No. D-2007-116      August 15, 2007




        Defense Logistics Agency's
          Warstopper Program
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms

DLA                   Defense Logistics Agency
DSC                   Defense Supply Center
PDAD                  Program Description and Approval Document
ROI                   Return on Investment
                Department of Defense Office of Inspector General
Report No. D-2007-116                                                      August 15, 2007
   (Project No. D2006-D000LD-0096.000)

              Defense Logistics Agency’s Warstopper Program

                                 Executive Summary

Who Should Read This Report and Why? DoD personnel and Government
contractors who are involved in the Defense Logistics Agency’s Warstopper Program
should read this report. It discusses the execution and overall management of the
Warstopper Program to satisfy requirements for sudden and sustained increases in
production (surge and sustainment) of selected critical industrial and medical items.

Results. Conference Report 102-311, “National Defense Authorization Act for Fiscal
Years 1992 and 1993,” accompanied House Resolution 2100, “National Defense
Authorization Act for 1992 and 1993,” which became Public Law 102-190, “National
Defense Authorization Act for 1992 and 1993” on December 5, 1991. The report
identified potential “war stopper” items on the basis of experience during Operation
Desert Storm. The items included nerve agent antidote auto-injectors; chemical
protective overgarments and gloves; meals ready to eat; tray pack rations; combat boots,
including cold weather boots; and barrier materials. Demand for these items was high in
wartime but declined rapidly in peacetime. The Under Secretary for Acquisition in
September 1992 stated that Defense Logistics Agency would be the principal agent for
the Warstopper Program. Shortly thereafter, Congress created a separate Warstopper
budget line to fund the preservation of critical industrial capabilities for selected items.

The Defense Logistics Agency’s Warstopper Program generally has been successful in
providing a stable industrial base for selected Warstopper items managed by the Agency.
The Defense Logistics Agency increased industry’s capacity to provide surge and
sustainment of selected Warstopper items, such as chemical gloves and meals,
ready to eat. However, the Defense Logistics Agency included items in the program that
did not meet its criteria. As a result, the Defense Logistics Agency may have used scarce
Warstopper funds for projects that should not have been included in the Warstopper
Program and may have overlooked more deserving projects. We recommend that the
Director, Defense Logistics Agency require the Warstopper Program Manager to clearly
identify specific criteria for including commercial medical data and licenses, specify the
contents of the Program Description and Approval Document, (a proposal to include a
particular item); provide guidelines for calculating the potential return on investment
associated with the acquisition of a prospective item, and formally document lessons
learned. (See the Finding section of the report for the detailed recommendations.) Our
review of the Managers’ Internal Control Program did not identify any material
management control weaknesses and was effectively functioning.

Management Comments. The Program Manager of the Warstopper Program (J-7),
through the Director, Acquisition Management, Defense Logistics Agency, concurred
with the recommendations in the draft report. Refer to the Finding section for a
discussion of management comments and to the Management Comments section for the
complete text of the comments.
Audit Response. Management comments are responsive to the recommendations
contained in the draft audit report. The Program Manager of the Warstopper Program
(J-7) stated that the recommendations are incorporated in the revised One Book chapter
on managing the Warstopper Program that is currently in final coordination.




                                           ii
Table of Contents

Executive Summary                                                       i

Background                                                              1

Objectives                                                              2

Review of Internal Controls                                             2

Finding
     Management of the Defense Logistics Agency’s Warstopper Program    4

Appendixes
     A.   Scope and Methodology                                        13
     B.   Warstopper Process                                           15
     C.   Contract Descriptions                                        16
     D.   Report Distribution                                          20

Management Comments
     Defense Logistics Agency                                          23
Background
           Congressional Guidance. Conference Report 102-311, “National Defense
           Authorization Act for Fiscal Years 1992 and 1993,” accompanied House
           Resolution 2100, “National Defense Authorization Act for 1992 and 1993,” which
           became Public Law 102-190, “National Defense Authorization Act for 1992 and
           1993” on December 5, 1991. The report identified potential “war stopper” items on
           the basis of experience during Operation Desert Storm. These items, critical to the
           Services’ mission, are needed to meet wartime surge requirements, but their
           peacetime requirements are not sufficient to maintain an industrial capability.
           Among the items included as war stopper items were nerve agent antidote auto-
           injectors; chemical protective overgarments and gloves; meals ready to eat; tray
           pack rations; combat boots, including cold weather boots; and barrier materials.
           The conference report indicated that DoD should take the necessary steps to ensure
           the maintenance and stability of the industrial base for war stopper items. The
           report also indicated that the Secretary of Defense should prepare and submit a plan
           to the congressional defense committees no later than January 31, 1992, to meet the
           requirement. The Under Secretary for Acquisition in September 1992 stated that
           Defense Logistics Agency (DLA) would be the principal agent for the Warstopper
           Program.

           Congress in FY 1992 then created a separate Warstopper budget line to provide
           funding for the preservation of critical industrial capabilities for selected items.
           Congress provided total funding from FYs 1993 through 2004 of $433,906,942. For
           FYs 2005 and 2006, Congress allocated $56,227,244 and $48,465,044 respectively.

           Warstopper Program. The Acquisitions Programs and Industrial Capabilities
           Division of the DLA J-7, Acquisition Management Directorate manages the
           Warstopper Program (the Division is referred to as the Warstopper Program Office
           throughout this report). The Warstopper Program Manager provided documentation
           on the development of the Warstopper Program from 1998 to the present, but there
           was no formal audit trail documenting the organizational stewardship of the funds
           from the program’s inception to 1998. DLA General Order 5-98, February 11,
           1998, transferred management of the Warstopper Program to the Defense Logistics
           Support Command, which managed the program and established its policies and
           procedures. From 1998 to 2007, responsibility for the Warstopper Program
           transferred with successive reorganizations until General Order 4-07,
           March 4, 2007, established the Acquisition Management Directorate. That
           directorate included the Acquisition Programs and Industrial Capabilities Division,
           which was given responsibility for oversight of the Warstopper Program.

           Warstopper Process. In addition to the congressionally identified items, the
           Services may submit their unfunded war reserve requirements to the DLA Supply
           Centers responsible for the items.1 Supply Center personnel determine whether the
           item meets the intent of the Warstopper Program and whether a surge and
           sustainment capability is needed. If so, Supply Center personnel determine whether
           the item is included in an existing contract and whether the contractor will provide
1
    Services submit requirements annually except for medical items, which are sent to DLA quarterly.



                                                       1
     surge and sustainment capability at no cost. If the contractor agrees to provide
     surge and sustainment of the item at no cost, the contracting officer at the Supply
     Center modifies the contract to include a surge and sustainment clause. If not, DLA
     Supply Center personnel perform an industrial analysis when necessary for items
     other than studies, reports, and medical data. The industrial analysis validates
     requirements, reviews the commercial capacity to meet the requirements, suggests
     alternatives to meet the deficiency, recommends solutions, and identifies needed
     funding.

     In addition to items proposed by the Services, Defense Supply Center personnel can
     identify potential critical items on the basis of high wartime demand. Supply Center
     personnel then inform the Services of these items, and Service personnel determine
     whether to include the items in their requirements submission for the Warstopper
     Program. When Defense Supply Center personnel receive a requirement
     submission, they prepare a proposal known as a Program Description and Approval
     Document (PDAD), which includes the reason for requesting Warstopper funds; the
     effect on the warfighter; a pre-investment calculation of return on investment (ROI),
     which is an estimated benefit; an acquisition strategy; and a funding profile
     projecting funding needs in current and outlying years. The DLA Warstopper
     Program Manager then reviews the PDAD and either approves or disapproves it. If
     it is approved, the Warstopper Program Manager provides funding on a service
     order to the requesting Defense Supply Center. A service order is a mechanism for
     transferring funds among DLA organizations. The Supply Center initiates the
     acquisition process by awarding a new contract or modifying the existing contract to
     include a surge and sustainment clause. See Appendix B for a flowchart of the
     Warstopper process.


Objectives
     Our overall audit objective was to evaluate the effectiveness of the DLA
     Warstopper Program in meeting the needs of the Services for war reserve materiel
     by guaranteeing surge production capability from the industrial base. Specific
     objectives were to evaluate the process of identifying and selecting items for the
     Warstopper Program; the ability of industry to provide surge and sustainment for
     Warstopper items; the surge production benefits the Warstopper Program receives;
     lessons learned from providing items during Operation Iraqi Freedom and Operation
     Enduring Freedom; and the management control program as it relates to the overall
     objective. See Appendix A for a discussion of the scope and methodology and for
     prior coverage related to the objectives.


Review of Internal Controls
     DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
     and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”




                                           2
           August 28, 1996,2 require DoD organizations to implement a comprehensive system
           of management controls that provides reasonable assurance that programs are
           operating as intended, and to evaluate the adequacy of the controls.

           We identified no major weaknesses in management controls within the Warstopper
           Program that related to meeting the needs of the Services for surge production
           capability. However, DLA needs to improve the controls over the selection process
           and conduct of studies of lessons learned from prior events. Recommendations
           contained in this report, if implemented, will improve the selection of Warstopper
           items and the management of the program.




2
    Our review of internal controls was done under the auspices of DoD Directive 5010.38, “Management
    Control (MC) Program,” August 26, 1996, and DoD Instruction 5010.40, “Management Control (MC)
    Program Procedures,” August 28, 1996. DoD Directive 5010.38 was canceled on April 3, 2006. DoD
    Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,” was reissued on January 4,
    2006.



                                                      3
                    Management of the Defense Logistics
                    Agency’s Warstopper Program
                    The DLA Warstopper Program Manager took effective action to guarantee
                    industry’s ability to provide surge and sustainment for selected Warstopper
                    items, benefiting the warfighter. However, some investments funded by the
                    Warstopper program are questionable, and others do not meet published
                    criteria. These conditions occurred because DLA did not provide the Supply
                    Centers with written guidance that clearly defined the selection criteria for
                    potential Warstopper investments and specify how to prepare requests for
                    Warstopper funds. In addition, personnel did not prepare a lessons learned
                    study from previous operations. Consequently, the intent of the program
                    envisioned by Congress—selecting the most deserving items for the
                    Warstopper Program—may not be met.


Criteria
           DLA Warstopper Guidance. DLA issued the “Defense Logistics Support
           Command Memorandum DLSC-P,” October 21, 1998, to provide basic guidance to
           Supply Center procurement managers on the Warstopper Program. The memo
           states that the primary purpose of the Warstopper Program is to fund Warstopper
           investments that satisfy a wartime surge. Before using Warstopper funds,
           procurement managers must consider whether a potential investment is:

                         x   critical to the conduct or sustainment of combat operations,

                         x   based on wartime surge and sustainment requirements,

                         x   focused on expanding, sustaining, or recreating industrial capability
                             and not on the procurement of war reserve inventories,

                         x   made for unique products and industrial capability,

                         x   the most cost- and mission-effective solution to guarantee the
                             availability of critical product or industrial capability, or

                         x   made for the purchase and storage of finished inventory only as a last
                             resort.

           The memorandum states that inventory reduction is a key objective. Therefore,
           appropriate investments usually are items with limited shelf life that the contractor
           can rotate.3 In addition, the memorandum requires DLA Supply Center personnel to


3
    Items are rotated through inventory to perpetually extend the life of the investment.



                                                          4
    prepare a business case (the PDAD) before requesting approval of potential
    Warstopper investments from the Warstopper Program Manager.

    The memorandum cites a letter from the Under Secretary of Defense for Acquisition
    and Technology dated April 17, 1998, emphasizing the need to perform a rigorous
    analysis before making investments to preserve industrial capabilities.

    DLA “The One Book” Guidance. DLA Directive 5025.30, “The One Book,”
    December 9, 2003, standardizes and streamlines DLA policies, processes, and
    procedures. It includes a chapter titled, “Industrial Capabilities Program, Manage
    the Warstopper Program.” The One Book states that the intent of the Warstopper
    Program is to preserve the industrial base for critical warfighting items, the demand
    for which during peacetime is insufficient to meet wartime needs. Investments are
    for accelerating production of critical items and maintaining critical industrial
    capabilities. Furthermore, investments are intended as a cost-effective alternative to
    the procurement and storage of war reserve materiel. The investments include items
    that meet the Warstopper criteria as spelled out in the 1998 Defense Logistics
    Support Command Memorandum or are congressionally required. In general, these
    items are mission critical and have low peacetime and high wartime demand, a long
    lead time, or a short shelf life.

    Acquisition Guidance. The DoD Defense Acquisition Guidebook, Version 1.6,
    July 24, 2006, is designed to complement policy documents by providing
    discretionary best practices to acquisition officials, who should tailor the
    information to their programs’ needs. Studies of lessons learned give the program
    manager a tool to help identify potential areas of risk associated with a program.
    Lessons learned documents tell what worked and what did not work in the past, in
    the hope that a future program can avoid similar pitfalls.


Surge and Sustainment Capability
    The DLA Warstopper Program Manager took effective action to ensure the surge
    and sustainment capability of the industrial base for selected critical Warstopper
    items.

    According to the FY 2005 DLA Warstopper Annual Report, November 30, 2005,
    the Warstopper Program preserved the nerve agent antidote auto-injector and
    chemical glove industries, improved the subsistence (rations) industry, and
    refashioned medical readiness. For example, Supply Center personnel reported in
    their PDAD that the production requirement for nerve agent antidote auto-injectors
    is 950,000 units within 142 days in peacetime, and 5 million units in wartime. The
    Warstopper contract acquired access to excess plant capacity and mandated the
    rotation of components for auto-injectors that the Supply Center purchased and the
    contractor stored for contingencies. Without the Warstopper investment, the
    Services would have to build and stock their entire wartime requirement over a
    2-year period.

    During FY 2005, DLA provided funding on 25 Service Orders. We judgmentally
    selected 12 contracts with FY 2005 funding of $17.7 million awarded by the Supply


                                          5
     Centers that represented 5 of the 25 Service Orders. We reviewed the 12 contracts
     shown in the following table to determine their applicability to the program and the
     contractor’s ability to provide the materiel and services required.



                              Contracts Reviewed During the Audit

                                                                          Estimated       Warstopper
                          Date of the                                    Total Value    FY 2005 Value
      Contract Number      Contract                   Item              ($ thousands)    ($ thousands)
1    SP0441-05-D-1652    Sept. 28, 2005         Lithium batteries           6,452             6,452

2    SP0441-05-D-1666    Sept. 28, 2005         Lithium batteries          3,077            3,077

3    SP0430-04-D-1009     Sept. 3, 2004     Direct-current motors            866               38

4    SP0500-04-D-0239     Feb. 13, 2004             Barriers             164,044            3,000

5    SP0407-05-D-0464    Dec. 27, 2004            Windshields             10,261            1,784

6    SP0200-98-F-FD83    Sept. 30, 1998             Bandages               1,988               97

7    SP0200-05-C-7704    Sept. 28, 2005   Pharmaceutical sales data        3,419              631

8    SP0200-05-C-7705    Sept. 28, 2005   Medical/surgical sales data      3,335              645

9    SP0200-02-D-3007    Sept. 10, 2002   Cataloging, classification       3,046              784

10   SP0200-01-D-3001    Sept. 26, 2001         Pharmaceuticals            5,708              510

11   SP0200-01-D-3916    Sept. 28, 2001        Blood-testing kits          9,100              616

12   SP0200-02-D-8018    Sept. 25, 2002        Portable ventilators        7,977               63



     Appendix C describes the 12 contracts. Of the 12, 8 required the contractor to
     maintain a level of inventory in the event that DLA invoked the surge and
     sustainment clause, and 4 did not. We visited four of the eight prime contractors
     and one subcontractor. We conducted a physical inventory and verified that the
     amount of inventory on hand could meet the initial surge and sustainment contract
     requirements. For example, our review of contract number SP0200-98-F-FD83,
     September 30, 1998, awarded to Elwyn Industries, determined that the contract
     required the contractor to have sufficient raw material on hand by May 1999 to
     deliver 320,000 first-aid camouflage bandages and 1,332,529 camouflage
     compressed muslin bandages. Warstopper funding for this contract for FY 2005
     was $96,970. We visited Elwyn in September 2006 and conducted a physical
     inventory for 7 of the 15 line items of raw materials used in the production of
     bandages. We identified the amount of raw material needed to produce the required


                                           6
           number of finished items; counted, weighed, and measured the raw material on
           hand; and determined that raw material quantities were sufficient to meet the surge
           and sustainment requirements.


Benefits of the Warstopper Program
           The DLA Warstopper Program Manager funded items that generally provided the
           warfighter significant benefits.

           The 2005 DLA Annual Warstopper Report detailed monetary benefits and
           improvements in readiness. From FYs 1993 through 2005, the Warstopper Program
           invested about $490 million to purchase access to inventory. If the Services had
           purchased and stocked the assets, the cost would have been $3.2 billion. This
           investment resulted in a reported cost avoidance of $2.7 billion, of which $1.7
           billion was attributed to medical readiness. The Warstopper Program Office used
           two methods to compute the cost avoidance, and a third to compute benefits related
           to readiness. All three methods used cost information available at the end of the
           fiscal year for the annual reporting. The first method compared the cost of buying
           and storing the required item with the cost of pre-positioning raw material or
           subassemblies at the manufacturer’s plant. The second method compared the cost
           of buying and storing the required item with the cost of Government-furnished
           materiel and contractor management fees. The third method compared the cost of
           buying and storing the required item with the cost of increasing a contractor’s
           production capacity to meet the wartime surge requirement.

           During the audit, we met with officials from Bearing Point, a support contractor for
           the Warstopper Program, and discussed in detail the calculations used in the annual
           report to identify benefits derived from the investments. We also obtained copies of
           spreadsheets used in the computation of benefits that we reviewed. The benefits
           received are shown in the Annual Report as an actual return on investment (post-
           ROI) for each line item. The post-ROI calculation shown in the Annual Report uses
           updated cost information, which is different from the pre-ROI computed as part of
           the PDAD. We verified the post-ROI computations for three Warstopper
           investments, including Ultralife lithium batteries, camouflage bandages, and
           transmission races. For example, the report stated that the Army required 940
           transmission races to meet surge and sustainment requirements for the Bradley
           Fighting Vehicle System. The manufacturer identified a long lead time of about
           41 weeks for the specialty steel used to produce the races. Bearing Point’s analysis
           showed that the purchase and storage of the transmission race would cost about
           $2.59 million. The purchase and pre-positioning of the specialty steel would cost
           about $310,000. The benefit derived from having the long lead time material
           available resulted in a post-ROI of 8.4 to 1.4 We also reviewed two of the three
           methodologies used by the Program Office and determined that the methodologies
           provided a reasonable estimate of the benefits derived from each Warstopper
           investment.


4
    The post-ROI was calculated by dividing the cost to purchase and store the race ($2,589,574 million) by the
    cost of purchasing and pre-positioning the specialty steel ($309,699).



                                                        7
Selection of Warstopper Investments
           Some Warstopper investments in industrial and medical items were questionable.
           Under the 12 contracts we reviewed, we found that the Warstopper Program
           provided funding for an industrial motor and medical items that did not meet the
           intent of the Warstopper Program.

           Industrial Items. The Defense Supply Center (DSC) Richmond awarded contract
           SP0430-04-D-1009, September 3, 2004, valued at $865,650, of which $37,810 was
           FY 2005 funding, to Motor Technology for the purchase of direct-current motors
           that the Services use in aircraft such as the Sea Sprite helicopter. The contract
           required the delivery of 110 motors within 90 days of invoking the surge and
           sustainment clause. To meet the surge and sustainment schedule, the contractor had
           to build the motors to about 80-percent completion. The additional 20 percent
           involved painting, testing, packaging, and shipping the motors. The motors do not
           have a limited shelf life.

           DLA officials informed us that they included the motors in the Warstopper Program
           because they were unable to reprogram the funds to medical candidates before the
           end of the fiscal year. In addition, the PDAD showed the motors had a long lead
           time and a pre-ROI of 1.04 to 1.00.5

           Both The One Book and the DLA Memorandum of October 21, 1998, allow
           investments for items that have a limited shelf life. We question whether the motors
           should be funded under the Warstopper Program because the motors do not have a
           limited shelf life and are about 80-percent complete. In general, Warstopper items
           are mission critical, have low peacetime and high wartime demand, a long lead time,
           or a short shelf life. In addition, DLA guidance stresses that appropriate investment
           in finished goods usually involves items with a limited shelf life. Scarce
           Warstopper funds should not be used for this type of investment.

           Medical Items. The Warstopper Program Manager approved a PDAD in
           November 2004, titled “Pharmaceutical Corporate Exigency Contracts.” The
           PDAD included pharmaceutical items that are commercially supportable and not
           militarily unique. The items are directly applied in the treatment of the majority of
           expected wartime casualties or patients with illnesses. The items are needed to save
           or sustain life or limb and to prevent or reduce impairment or disease, including the
           effects from biological or chemical warfare. The PDAD did not identify specific
           pharmaceutical items, instead allowing Supply Center personnel to use their
           professional judgment in selecting the items.

           DSC Philadelphia awarded contract SP0200-01-D-3001 on September 26, 2001,
           valued at $5,707,780, of which $509,587 was for FY 2005 funding, to
           Johnson & Johnson on behalf of Ortho-McNeil Pharmacy, Inc., for access to
           selected pharmaceutical items. The basic contract awarded in 2001 included access
           to five types of antibiotic items. From the award of the basic contract through

5
    The pre-ROI was calculated by dividing the standard price of the motor ($39,451.11) by the cost of the raw
    material, labor, and management fees associated with assembling the motors to 80-percent completion
    ($37,810.00).



                                                        8
    September 2006, contracting officials issued 22 modifications, expanding the
    products covered to 41 pharmaceutical items, including 8 items such as diaphragms
    and oral contraceptives. Although not used to treat expected wartime casualties or
    patients with illnesses or to sustain life or limb, birth control items could prevent or
    reduce impairment or disease. However, we do not believe that birth control items
    meet the intent of the PDAD or the intent of the Warstopper Program.


Selection Guidance for the Warstopper Program
    Some investments funded by the Warstopper program did not meet published
    criteria. DLA did not provide the Supply Centers with written guidance that clearly
    defined the selection criteria for Warstopper investments and specified how to
    prepare requests for Warstopper funds.

    Updating Criteria for Warstopper Investments. Of the 12 contracts reviewed, 2
    provided funding for the acquisition of commercial pharmaceutical and
    medical/surgical sales data, and 1 provided for access to a license to obtain product
    classification, nomenclature standardization, and functional equivalents
    identification for medical/surgical items. DSC Philadelphia personnel awarded the
    sales data contracts to IMS Health in September 2005. Contracts SP0200-05-C-
    7704 (for $631,284) and SP0200-05-C-7705 (for $645,330) provide commercial
    sales data including a list of items arranged by national drug code or manufacturer’s
    part number, and nomenclature. The contractor obtains the data from several
    sources, such as pharmacies, mass merchants, drug wholesalers, chain drugstores,
    hospitals, and Federal medical facilities. DSC Philadelphia personnel informed us
    that they use the data to identify current pricing, packaging, item availability, and
    related trends within the medical community. They enter the data into their
    Readiness Management Application database, which gives users information on
    what is needed for contingencies and who supplies the required material.

    DSC Philadelphia awarded the third contract, SP0200-02-D-3007, valued at
    $3,045,917, of which $784,380 was FY 2005 funding, to Cardinal Health on
    September 10, 2002, for a license to cross-reference commercial item numbers to
    national stock numbers, or to assign national stock numbers to unclassified items,
    and to identify potential substitute items.

    The three contracts enable DLA to identify, classify, and determine equivalents for
    medical items. On the basis of current DLA guidance, the three contracts did not
    meet the Warstopper criteria. However, congressional guidance directed DoD to
    take the necessary steps to ensure the maintenance and stability of the industrial
    base for critical Warstopper items. Also, a report by the General Accounting Office
    (now the Government Accountability Office), GAO-02-650, “Defense Inventory:
    Improved Industrial Base Assessments for Army War Reserve Spares Could Save
    Money,” July 2002, cited the importance of current industrial capability data and the
    ability to assess the industrial base capability. DLA should include this criterion in
    The One Book guidance because the medical data and license do not meet current
    Warstopper criteria.




                                           9
Preparing the Program Description and Approval Document. The One Book
states that Supply Center personnel must complete a PDAD and submit it, along
with supporting documentation, to the Program Manager when requesting
Warstopper funding. However, The One Book provides little guidance on specific
elements to include in each PDAD. The Warstopper Program Manager informed us
that he selectively reviews the content of each PDAD for weighting factors
including return on investment (pre-ROI calculation), criticality, effect on readiness,
and risk (stability of the industry, item longevity, and relevance).

        Pre-Investment Return on Investment. ROI calculations compare the cost
of acquiring and storing materiel with the cost of investing in the industrial capacity
to produce the materiel (the Warstopper solution). The Program Manager uses the
pre-ROI calculation to make an initial go/no-go decision. If the pre-ROI ratio is
greater than 1, the Program Manager further evaluates the proposed investment. If
the pre-ROI is less than or equal to 1, the Program Manager considers the
investment only if it is congressionally required.

Our review disclosed that the pre-ROI calculations in the PDAD provided by the
Defense Supply Centers were neither consistent nor accurate. We reviewed
10 PDADs containing 14 pre-ROI calculations; 2 of the PDADs contained multiple
pre-ROI calculations. Of the 14 calculations, 4 were correctly computed, 1 had
insufficient data to analyze, 7 were missing components (storage costs or
management fees) or contained an error in the calculation, and 2 were for medical
data and licenses for which the Program Manager did not consider the pre-ROI
relevant. Of the seven with missing components or errors in calculations, Supply
Center personnel understated five pre-ROI calculations and overstated two. For
example, on the lithium battery PDAD (contract SP0441-05-D-1652), the computed
pre-ROI was 1.96 to 1. Our review showed that the pre-ROI was actually
overstated and should have been 1.81 to 1. The pre-ROI was overstated because the
computation did not include the annual storage handling fee. We recognize that the
overstatement was only 8 percent and did not affect the investment decision;
however, investments made on the basis of calculations that were missing data
could affect future Warstopper investment decisions.

        Criticality and Readiness Factors. The other weighting factors that the
Warstopper Program Manager uses are the criticality of the item, its effect on
readiness, and the risk involved (stability of the industry, item longevity, and
relevance). The Warstopper Program Manager informed us that he uses his
professional judgment in evaluating the other weighting factors. He does not
formally document the rationale for measuring criticality and readiness. However,
his signature on the PDAD approves it as a Warstopper investment.

Because of the errors in computing the pre-ROI and the lack of criteria for
measuring criticality and readiness, the Warstopper Program Manager may have
overlooked deserving projects and funded less deserving projects. Officials must
take action to define the methodology for the calculation of the pre-ROI included in
the PDAD and develop tools for measuring criticality and the effect on readiness.
Officials must publish guidance to identify specific criteria used in the selection
process, including the need for up-to-date medical data and licenses; define the




                                      10
    methodology for calculating the pre-ROI included in the PDAD; standardize PDAD
    contents; and provide weighting factors such as criticality and readiness for
    prioritizing similar investment candidates.


Current Actions by Warstopper Program Office
    In March 2007, Warstopper Program officials stated that in March 2006 they issued
    a draft PDAD to the Supply Centers. The draft provided the format and content for
    requesting Warstopper funding, the criteria used to justify the proposed investment,
    assumptions made during analysis, and an exit strategy to recover all or a portion of
    the Government-furnished property when the contract expires or the Government
    terminates it. The officials received comments from the Supply Centers, are waiting
    for comments from their financial group, and will work with the legal office to
    incorporate the comments in the guidance. In addition, the officials are revising The
    One Book. We believe the guidance will provide Supply Center personnel with
    clear and comprehensive instructions for preparing PDADs. Officials need to issue
    the draft PDAD guidance in final form and revise The One Book to include the
    recommendations in this report.


Lessons Learned
    Warstopper officials informed us they did not conduct formal studies of lessons
    learned to determine whether contractors were able to meet surge requirements for
    Warstopper items during Operation Enduring Freedom and Operation Iraqi
    Freedom. The DoD Defense Acquisition Guidebook states that lessons learned are
    a tool that the program manager may use to identify potential areas of risk
    associated with a program, system, or process. Officials from the Warstopper
    Program Office did not provide an explanation for not conducting studies of lessons
    learned. At our request, the Program Manager compiled a list of contracts that
    surged recently. As an example, he noted that the surge to outfit the Navy hospital
    ship USNS Comfort filled 90 percent of the items required. However, he did not
    have documentation to support the cited percentage. Although not currently part of
    the evaluation process, identifying investments that failed to meet surge
    requirements and the causes of the failures could aid in identifying and determining
    which surge and sustainment items the Warstopper Program Office should continue
    to fund. Further, studies of lessons learned could help determine the need to fund
    other investments to meet requirements. Officials should prepare a lessons learned
    report on recent experiences in areas of conflict and natural disasters and use the
    results to help in making future investment decisions.

Conclusion
    The DLA Warstopper Program Office took action to ensure that industries had the
    ability to provide surge and sustainment production of selected Warstopper items
    and that the warfighter received benefits from the program. However, the
    Warstopper Program Office must improve the process for identifying and selecting


                                         11
    investments by providing more detailed guidance that clearly defines the process,
    cites the criteria used, standardizes the contents of a PDAD, and gives the
    methodology for calculating the pre-ROI used in the PDAD. More detailed
    guidance will provide Defense Supply Center personnel with a better understanding
    of the identification and selection process, criteria, PDAD format, and pre-ROI
    calculations. In addition, guidance will enhance the selection process by allowing
    Warstopper personnel to approve only high priority investments. Performing
    studies of lessons learned can further aid in identifying shortfalls in the Warstopper
    Program. Finally, guidance will ensure that the Warstopper program continues to
    meet the intent of Congress to guarantee industry’s surge capability for mission-
    critical items with low peacetime and high wartime demand, long lead time, or short
    shelf life.


Recommendation, Management Comments, and Audit Response
    We recommend that the Director, Defense Logistics Agency require the
    Warstopper Program Manager to publish a revised Defense Logistics Agency
    Directive 5025.30, The One Book, that:

           1. Identifies specific criteria to be used in the selection process,
    including a provision for medical commercial data and licenses to exploit the
    data.

          2. Standardizes the contents of the Program Description and Approval
    Document and establishes weighting factors for prioritizing similar investment
    candidates.

           3. Defines the methodology for calculating the pre-return on investment
    included in the Program Description and Approval Document.

          4. Requires studies of lessons learned to help identify shortfalls in the
    Warstopper Program.

    Warstopper Program Manager Comments. The Program Manager for the
    Warstopper Program, through the Director of Internal Review, DLA, and approved
    by the Director, Acquisition Management, DLA, concurred with the
    recommendations.

    Audit Response. Management comments are responsive to the recommendations
    contained in the draft audit report. The Program Manager of the Warstopper
    Program (J-7) stated that the recommendations are incorporated in the revised One
    Book chapter on Managing the Warstopper Program, currently in final coordination
    and expected to be completed by August 30, 2007. Specifically, the Program
    Manager indicated that he revised paragraphs 4.6.1.5.1.1 through 4.6.1.6.1.4,
    paragraph 4.6.6.4, and Section 5 of the One Book to fulfill the recommendations.




                                          12
Appendix A. Scope and Methodology
   We conducted this performance audit in accordance with generally accepted
   government auditing standards. Those standards require that we plan and perform
   the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
   our finding and conclusions based on our audit objectives. We believe that the
   evidence obtained provides a reasonable basis for our finding and conclusions based
   on our audit objectives.

   We evaluated the effectiveness of the DLA Warstopper Program in meeting the
   needs of the Services for war reserve materiel by guaranteeing surge production
   capability from the industrial base. Specifically, we evaluated the ability of industry
   to provide surge and sustainment for Warstopper items and the benefits the program
   receives from surge production.

   We interviewed personnel responsible for implementing and monitoring the
   Warstopper Program, including the Warstopper Program Manager, Contracting
   Officers and Program Managers from the Defense Supply Centers in Philadelphia
   and Richmond, and contractor personnel supporting the DLA Warstopper Program
   Office. In addition, we interviewed the Warstopper contractors and subcontractors
   involved with 8 of the 12 contracts that we judgmentally selected for review.

   We reviewed the Warstopper Program history and goals as discussed in the FY
   2005 DLA Warstopper Program Annual Report as well as in DoD Instructions and
   Directives, including The One Book. Additionally, we reviewed Conference Report
   102-311, “National Defense Authorization Act for Fiscal Years 1992 and 1993,”
   accompanying House Resolution 2100, “National Defense Authorization Act for
   1992 and 1993,” which became Public Law 102-190, “National Defense
   Authorization Act for 1992 and 1993” on December 5, 1991. The law requires “the
   Defense Department to take the necessary steps to ensure the maintenance and
   stability of the industrial base for critical ‘war stopper’ items” and gives the specific
   Warstopper Program criteria used to select items for the Warstopper Program. To
   determine whether DoD took the necessary steps, for each sample contract, we
   analyzed the 2005 Warstopper database, the industrial base analyses, the PDAD, the
   solicitation, the proposal, the contract award and modifications, the price
   negotiation memorandum, statements of work, and the results of any site visits and
   inventory counts. We also visited contractor facilities to ensure the contractor met
   the contractual requirements, maintained the required materiel on hand and in good
   condition, and separated the materiel from the contractor’s commercial inventory
   when required.

   We discussed the Warstopper Program Office’s procedures for determining lessons
   learned from prior conflicts and natural disasters and whether surged contracts
   successfully met surge requirements. Also, we discussed whether DLA included
   items in the Warstopper Program on the basis of past surge problems.

   We performed this audit from December 2005 through May 2007 in accordance
   with generally accepted government auditing standards. We suspended the audit for
   3 months from January to April 2006.



                                          13
Our scope was limited to contracts with FY 2005 funding only. We examined
Medical Expenditures ($35.6 million), Aviation and Space Support ($11.7 million),
and Construction and Equipment ($3.3 million) contracts. We did not examine
Warstopper funding related to contracts for items managed by DSC Columbus, for
clothing and textiles or subsistence items managed by DSC Philadelphia, or for
DLA Headquarters Support, all of which totaled $5.7 million in FY 2005.

Use of Computer-Processed Data. We did not use computer-processed data to
perform this audit.

Government Accountability Office High-Risk Area. The Government
Accountability Office has identified several high-risk areas in DoD. This report
provides coverage of the DoD high-risk areas “DoD Approach to Business
Transformation: Supply Chain Management and Contract Management.”

Prior Coverage. Government Accountability Office, Report No. GAO-02-650,
“Defense Inventory: Improved Industrial Base Assessments for Army War Reserve
Spares Could Save Money,” July 2002




                                     14
Appendix B. Warstopper Process




Source: Flowchart submitted by the Warstopper Program Office



                                         15
Appendix C. Contract Descriptions
   1. Contract SP0441-05-D-1652, awarded to Saft America Inc. on September
   28, 2005, was valued at $6,451,962 and provided for lithium batteries, used in
   numerous weapon and communication systems. The batteries are a low
   peacetime/high wartime demand item. With the Warstopper investment, the
   contractor will significantly reduce the shortfall that could occur during a conflict or
   natural disaster. Inadequate supplies during the ground operations of Operation
   Iraqi Freedom had the potential to stall offensives and change battlefield tactics.
   Therefore, DLA used Warstopper funds to reduce the ramp-up time for production
   and better meet the surge and sustainment schedule. Phase I of the investment
   consisted of pre-positioning raw materials and components. Phase II required
   purchase of additional raw materials and new production equipment. The exit
   strategy consisted of rolling over the equipment to follow-on contracts and
   abandoning the equipment in place when fully depreciated.

   2. Contract SP0441-05-D-1666, awarded to Ultralife Batteries Inc. on
   September 28, 2005, was valued at $3,076,870 and also provided for lithium
   batteries. DLA made the investment to pre-position critical materials with long
   lead times and subassemblies, and to purchase equipment and services to reduce
   production lead time. The Warstopper investment accomplished the following:
   pre-positioning of raw materials ($1.8 million), expanding the contractor’s facility
   ($539,000), implementing a quality-control program ($466,000) and a statistical
   process control program ($149,000), and implementing a lean manufacturing
   program ($169,000). The contractor will receive distribution instructions for the
   equipment, materials, and subassemblies at the end of the contract.

   3. Contract SP0430-04-D-1009, awarded to Motor Technology Inc. on
   September 3, 2004, was valued at $865,650 (of which $37,810 was for FY 2005)
   and supplied DoD with a direct-current motor. The motors are used on the Sea
   Sprite, Cobra Attack, HH-60, and search and rescue helicopters. DLA included this
   item in the Warstopper Program because, without the investment, the contractor
   would be unable to meet the surge and sustainment schedule. DLA used
   Warstopper funding to enable the contractor to meet its surge and sustainment
   schedule.

   4. Contract SP0500-04-D-0239, awarded to Hesco Bastion Ltd. on February
   13, 2004, was valued at $164,044,369 (of which $3 million was for FY 2005) and
   provided for the pre-positioning of textile and steel material for force
   protection bastions. The contractor is the sole-source vendor for this critical item.
   Without the Warstopper investment, the contractor would be unable to meet the
   surge and sustainment schedule. An industrial study determined that Warstopper
   funding for pre-positioning the materiel would provide about 58 percent of the surge
   and sustainment requirements.

   The bastion is an effective anti-terrorism and force protection barrier consisting of a
   prefabricated, multicellular system made of a welded steel-wire mesh, heavily
   galvanized, with a nonwoven geotextile insert. The bastions can be built to any
   required length or height. An industrial study determined that long lead time
   associated with raw materials constrained the contractor’s ability to transition from


                                         16
peacetime to wartime production. The Berry Amendment, which required textile to
be purchased from domestic sources, was the reason for the excessive lead time for
the textile.

5. Contract SP0407-05-D-0464, awarded to PPG Aerospace Transparencies on
December 27, 2004, was valued at $10,260,675 (of which $1,784,130 was for FY
2005) and provided for the purchase of an additional Nesatron chamber to
increase production of Nesatron-coated windows used in UH-60 Blackhawk
and AH-64 Apache Helicopters. The contractor is the only available source for the
windshields. Without the Warstopper funding, the contractor would be unable to
meet the surge and sustainment schedule. With the investment, the contractor will
significantly reduce the number of backorders that would result without the
investment.

The coating provides uniform de-icing and defogging capability through electrically
heated systems. DLA determined that wartime demand far outstripped production
capability and resulted in significant shortfalls. The transition from peacetime to
surge production was constrained by the capacity of the Nesatron chamber. DLA
decided to fund the construction of an additional Nesatron chamber with the option
to sell it to the contractor at fair market value at the end of 5 years. This added
capacity would allow DLA to meet the current surge demand requirements, recover
from the accumulated backorders, and reestablish a safety level for the windshields.

6. Contract SP0200-98-F-FD83, awarded to Elwyn Industries on
September 30, 1998, was valued at $1,987,571 and provided for the pre-
positioning and rotation of raw materials for camouflaged bandages. The
contract was originally a 5-year contract, but was extended through option year 8.
The investment for FY 2005 was $96,970 and represented storage fees to include
the rotation of stocks with limited shelf life. The bandages have a low
peacetime/high wartime demand and are militarily unique. Without these
camouflaged bandages in the field, our fighting forces run the risk of having to use
white bandages, thus compromising their strategic location and exposing them to
potential discovery by unfriendly forces. Storing raw material used to produce
certain bandages ensures the contractor can meet more mobilization demands.

7. Contract SP0200-05-C-7704, a 5-year contract (base with 4 option years)
awarded to IMS Health Inc. in September 2005, was valued at $3,419,236 and
provides for the purchase of commercial pharmaceutical sales data. The
investment for FY 2005 totaled $631,284. The data provide insight into
pharmaceuticals sold in the commercial healthcare industry. The data are used in
the Medical Commercial Product Visibility system for market research and include
sales levels and volumes of pharmaceutical products and product flow in certain
geographic locations. The information allows DLA to assess the ability of the
wholesale medical system to support pharmaceutical contingencies. It is a way to
stay abreast of what is happening in the medical field, and it helps the user monitor
trends in prices and demand for commercial pharmaceutical sales.




                                      17
8. Contract SP0200-05-C-7705, a 5-year contract (base plus 4 option years)
awarded to IMS Health Inc. on September 2005, was valued at $3,335,140 and
provides for the purchase of commercial medical/surgical sales data. The
contractor gathered the data from manufacturers and distributors to analyze
commercial sector ability to support all medical/surgical readiness items. The
investment for FY 2005 totaled $645,330. This Warstopper investment is used in
the Medical Commercial Product Visibility system and provides information on
medical/surgical items and quantities produced, stored, and sold, which is critical
for surge and sustainment planning for the entire medical community. The data
allow DLA to assess the wholesale medical system’s ability to support
medical/surgical contingencies.

9. Contract SP0200-02-D-3007, a 4-year contract (base plus 3 option years)
awarded to Cardinal Health on September 2002, was valued at $3,045,917
(of which funding for FY 2005 totaled $784,380) and provided for additional
commercial medical product cataloging data and product classification for
identifying equivalent products. The ability to see what is actually being
produced, stored, and sold in the commercial sector, as well as what equivalent
products are available, allows the medical community to assess the ability of the
wholesale medical system to support contingencies. Each month, the contractor
provides equivalency data to DSC Philadelphia personnel, who load the data into
the Distributions and Pricing Agreements application, which feeds the Medical
Commercial Product Visibility system. The system provides a clear and current
picture of industry’s capability to support the readiness mission and provides usage
and availability data that DLA can compare with the Services’ requirements. The
system also provides data mapping to cross-reference DoD materiel identification
numbers to commercial materiel identification numbers.

10. Contract SP0200-01-D-3001, a 10-year contract (a pharmaceutical
Corporate Exigency Contract for base year plus 9 option years) awarded to
Johnson & Johnson on behalf of Ortho-McNeil on September 2001, was valued
at $5,707,780 (of which funding for FY 2005 totaled $509,587) and provides
access to the contractor’s pharmaceutical inventory. The bulk of the
pharmaceuticals meet the following Warstopper Program criteria: items have low
peacetime/high wartime demand; items are critical to the conduct or sustainment of
combat operations; items are available for surge wartime demand; and items have a
short shelf life. The contractor’s inventory under the contract includes antibiotics,
anti-fungal medicine, analgesics, and contraceptives. The contract is flexible in
allowing the Services to add or delete pharmaceutical items as they deem necessary.

11. Contract SP0200-01-D-3916, a 10-year contract (base plus 9 option years)
awarded to Abbott Laboratories on September 2001, was valued at $9,100,000
(of which funding for FY 2005 totaled $615,656) and provides access to
inventory of military blood-testing kits, cartridges, and peripherals. The item is
a hand-held blood-testing kit that performs a range of blood gas, electrolyte, and
chemistry, immunoassay, and coagulation tests in the field, with fast, accurate
results. The item is a forerunner in this type of point-of-care, hand-held blood
analyzer and meets the following Warstopper criteria: a truly unique product; a
product critical to the sustainment of combat operations; and a product with low
peacetime/high wartime demand. The contract allows for a ready-to-ship inventory
for the Services’ surge requirements without the lead time required to build the


                                     18
military-specific Hardigg cases for the analyzer. The contract is also flexible in
allowing for the upgrade to the newest analyzer, providing the Services with the
latest technology and avoiding storage of obsolete inventory.

12. Contract SP0200-02-D-8018, a 5-year equipment Corporate Exigency
Contract (base plus 4 option years) awarded to Impact Instrumentation Inc. in
September 2002, was valued at $7,976,796 (of which funding for FY 2005
totaled $62,543) and provides access to contractor-furnished material and
pre-positioning of Government-furnished material for portable ventilators.
The ventilator is unique, portable, and air certified for both fixed- and rotary wing
aircraft. The contractor manufactures in-house 80 percent of the parts used to
assemble the ventilator. The access purchased increases the capability of DLA to
support wartime requirements.




                                      19
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Acquisition Resources and Analysis
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation
Director, Defense Procurement and Acquisition Policy

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Combatant Command
Inspector General, U.S. Joint Forces Command

Other Defense Organizations
Defense Logistics Agency
  Director, Acquisition Management
  Division Chief, Acquisition Programs and Industrial Capabilities
  Warstopper Program Manager

Non-Defense Federal Organizations
Office of Management and Budget




                                           20
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Government Reform




                                       21
Defense Logistics Agency Comments




                     23
24
25
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Readiness and Operations Support prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Wanda A. Scott
Robert F. Prinzbach, II
Thomas S. Bartoszek
John W. Henry
Paul A. Hollister
Herman Tolbert
Richard McPherson
Brian S. Leinbach
Maria C. Kadlec
Renee Schoenberg
Catherine Faith
Carol Gallo
Allison Tarmann
